NO. 20-273
In the

Supreme Court of the United States
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
V.

ROVI GUIDES, INC.
AND UNITED STATES OF AMERICA,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 20th day of October, 2020, copies of the Reply Brief for the Petitioner
were sent to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Michael E. Joffre
Sterne Kessler Goldstein & Fox PLLC
1100 New York Avenue, NW
Washington, DC 20005

Respectfully submitted,

Arn Jacobsen

